<html>
<title> - CAUSES OF DELAYS TO THE FAA'S NEXTGEN PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             CAUSES OF DELAYS TO THE FAA'S NEXTGEN PROGRAM 

=======================================================================

                                (113-30)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-939 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                7

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
SAM GRAVES, Missouri                     Columbia
BLAKE FARENTHOLD, Texas              EDDIE BERNICE JOHNSON, Texas
LARRY BUCSHON, Indiana               MICHAEL E. CAPUANO, Massachusetts
PATRICK MEEHAN, Pennsylvania         DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ANDRE CARSON, Indiana
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida                  CORRINE BROWN, Florida
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois, Vice Chair     (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration.................................................     4
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................     4

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Michael P. Huerta:

    Prepared statement...........................................    31
    Answers to questions from the following Representatives:

        Hon. Frank A. LoBiondo, of New Jersey....................    43
        Hon. Richard M. Nolan, of Minnesota......................    54
Hon. Calvin L. Scovel III, prepared statement....................    61

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             CAUSES OF DELAYS TO THE FAA'S NEXTGEN PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 17, 2013

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. I thank you all for being here.
    One of the priorities of the subcommittee is to ensure that 
the U.S. maintains a modern, safe, and efficient aviation 
system now and into the future. Our current system simply 
cannot meet future air traffic demands. Over the last decade 
the FAA has been developing and more recently implementing a 
program to meet these demands, generally known as NextGen.
    Let me be clear, I completely support the NextGen program. 
I am very fortunate to represent the FAA Technical Center in my 
district, which is the Nation's premier aviation research and 
development, test and evaluation facility, and the primary 
facility supporting NextGen, as well as many other vital 
aviation safety initiatives.
    I have seen firsthand the development of technologies at 
the Tech Center that are now being deployed and in use in the 
National Airspace System. These technologies, many of which 
contributed to the survival of so many passengers aboard the 
Asiana flight 214, are improving the safety and efficiency of 
the civil aviation system. That is why I believe that the 
validation and testing of NextGen and other critical safety and 
modernization initiatives should continue to be conducted at 
the Tech Center.
    However, I also know that there are serious concerns 
regarding the FAA's ability to effectively and efficiently 
implement NextGen. I have heard that some ``transformational'' 
NextGen programs aren't truly transformational, that the FAA 
will never make the tough decisions required to advance 
NextGen, and that nobody can really agree what NextGen is today 
or what it should be in 2025.
    These concerns should not be downplayed, ignored, or 
outright dismissed. Whether or not you agree with them is not 
relevant. We--and the taxpayers, more importantly, and airspace 
users--have invested billions of dollars in NextGen, and it is 
clear that billions more will need to be invested. Every 
concern should be acknowledged, reviewed, and properly 
addressed.
    I also want to make clear that I am not pointing the finger 
at any specific person for perceived or actual problems with 
NextGen. In particular, Administrator Huerta, this is not 
directed at you. But the NextGen program is a decade old, and 
there are a lot of people that share the responsibility for 
what has taken place or what has not taken place, including 
people within the FAA, the aviation industry, and Congress 
itself for what we maybe have not done or not done as well as 
we should have done.
    The inspector general is here today to outline a number of 
problems with advancing NextGen that he and his inspectors and 
auditors have identified. I look forward to hearing his 
findings and recommendations. This report provides an 
opportunity for all of us to hit the reset button and make sure 
that we are headed in the right direction, in the most 
efficient and effective way, and with the best outcome. We have 
to plan appropriately, in particular with the upcoming budget 
constraints which could have a big impact on all FAA 
operations.
    I expect DOT Secretary Foxx, Administrator Huerta, Deputy 
Administrator Mike Whitaker, and industry stakeholders to work 
together to get the program back on track, yielding the 
benefits that all of us want to see.
    Most of you know that by now my door is always open, and if 
there is anything that I can do, or more importantly we as the 
committee can do, we hope that you do not hesitate to ask.
    I also want to add that I have worked very closely with 
Congressman Larsen over the years, and especially now with this 
session of Congress, with this Aviation Subcommittee, I think 
we are of exactly the same mind with our focus and direction 
and how we would like to see things move forward.
    So with that, Rick, I will now yield to you for your 
opening statement.
    Mr. Larsen. Thanks, Frank. And I want to thank the chairman 
for calling today's hearing to review the implementation of 
NextGen.
    Mr. Chairman, you and I have led this subcommittee for only 
a few months, but I believe we are both committed to making 
sure that the FAA's NextGen effort succeeds, and this 
subcommittee must provide the FAA with the authority and 
resources that it needs to be successful. We also have to 
provide vigorous oversight to ensure necessary corrections to 
guarantee NextGen stays on track.
    And if you will allow me just to divert briefly from my 
prepared remarks, in looking at the testimony of both 
Administrator Huerta and Inspector General Scovel, it reminds 
me of a term that I think law enforcement uses to describe when 
two or more people look at the same crime scene or the same 
crime incident, and conclude two or three or four very 
different things happening. It is called the Rashomon effect. 
And reading the testimony from both folks, it seems like two 
people are looking at the same thing and coming up with two 
very different conclusions about what happened.
    Now, the term ``Rashomon'' is from the movie by Akira 
Kurosawa, some might know, called ``Rashomon.'' And it details 
a very tragic incident that happens and it really gets down--in 
the movie it really--it sort of devolves into the cesspool of 
existentialism about what is the truth and what is the meaning 
of truth.
    I hope we don't get to that point in this hearing about 
what is NextGen and what are the concerns with it. Otherwise, 
we may be in a lot of trouble. But I do think that we have to 
provide some pretty aggressive oversight to get at what are the 
actual problems and what are the next steps that we do need to 
take.
    The FAA has clearly made some progress in its efforts to 
implement NextGen. For example, the agency has advanced the 
ADS-B program that will be the NextGen satellite-based 
successor to radar for tracking aircraft. FAA has deployed more 
than 500 ADS-B ground stations and is on track to deploy all 
700 ground stations on time in early 2014.
    But it has experienced setbacks. According to the inspector 
general, a $330 million cost overrun and 4-year delay on the 
ERAM, or En Route Automation Modernization program, has delayed 
the start of new NextGen programs. And after examining the 
inspector general's report, I am concerned that without 
changes, delays in NextGen may force us to rename it LastGen. 
We have a lot of work to do.
    The FAA's approach to implementing NextGen has changed 
since Congress tasked the FAA with transitioning to NextGen a 
decade ago. For example, in 2005 the administration at the time 
requested and received cuts to the FAA's capital account, 
leading to the termination of some early efforts to achieve 
NextGen capabilities.
    In 2009, FAA shifted its strategic focus to delivering 
NextGen benefits to airspace users in the midterm 2018 
timeframe. The FAA took this action at the urging of industry 
stakeholders who participated in the RTCA's Midterm 
Implementation Task Force. Yet, while the FAA has been working 
to maximize early NextGen benefits, the inspector general will 
testify this morning that the FAA has not made several key 
long-term decisions that will ultimately shape the 
capabilities, timing, and costs of NextGen.
    So therefore I look forward to hearing Inspector General 
Scovel and Administrator Huerta's explanations of the reasons 
why these long-term decisions have not been made. Additionally, 
I want to hear how the FAA intends to respond to budgetary 
pressures that will undoubtedly affect future NextGen 
implementation. In May, the chairman and I hosted a NextGen 
listening session where industry participants told us the FAA 
stood down its NextGen metroplex initiatives due to 
sequestration.
    In response, I wrote to Administrator Huerta asking him to 
explain that situation and have yet to receive a formal reply. 
So I do look forward to hearing Administrator Huerta's answer 
providing the subcommittee with an update on this issue.
    And last month, the House Appropriations Committee reported 
a fiscal year 2014 transportation appropriations bill with 
historically low capital funding levels for the FAA. H.R. 2610 
would provide $2.1 billion for the FAA's facilities and 
equipment account for 2014. That is 22 percent less than the 
Administration's request. Moreover, it is a cut below the 2013 
post-sequester funding level and the authorized 2014 funding 
level this committee provided in the FAA reauthorization.
    The House transportation appropriations bill would provide 
the lowest level of capital funding for FAA since the start of 
the NextGen program and the lowest level since 2000. Clearly, 
the Administration is expecting budget cuts to have a 
significant impact on NextGen. Last Friday Administrator Huerta 
asked the RTCA Advisory Committee, the NextGen Advisory 
Committee to develop a prioritized list of NextGen activities 
that will be triaged due to budget cuts and sequestration. And 
I want to hear the Administrator's explanation why he asked the 
NAC to undertake this project and how it will influence NextGen 
strategy.
    On a positive note, we now have stable leadership for 
NextGen that we have not had in the past. Administrator Huerta, 
who led the NextGen effort for years, was sworn in for a 5-year 
term as Administrator late last year, and just last month the 
Obama administration appointed a Deputy Administrator who will 
serve a 5-year term as the chief NextGen officer, as required 
by the FAA bill.
    Mr. Chairman, NextGen's success will rely on a strong 
partnership between Government and industry. As an airline 
industry veteran, Deputy Administrator Whitaker is well 
positioned to reach out to the industry stakeholders and 
leverage the collaboration needed to move NextGen forward.
    So with that, Mr. Chairman, I want to thank you for the 
opportunity to provide an opening statement, and look forward 
to hearing from our witnesses.
    Mr. LoBiondo. Thank you, Rick.
    With that, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material for the record of this hearing. Without 
objection, so ordered.
    Now, I would like to turn to our panel.
    And first, Administrator Huerta, welcome, and we look 
forward to your statement.

  TESTIMONY OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
    AVIATION ADMINISTRATION; AND HON. CALVIN L. SCOVEL III, 
      INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Huerta. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, and members of the subcommittee. I appreciate the 
opportunity to testify before you today on the progress we are 
making with NextGen.
    Mr. Chairman, before I begin my testimony I want to express 
that our thoughts and prayers are with the passengers and crew 
of Asiana flight 214 and their families. I am sure the 
committee appreciates that the ongoing accident investigation 
is in the early stages, and I am not able to speculate about 
the cause of the crash. The FAA is fully supporting the 
investigation of the National Transportation Safety Board and 
we will continue to do so throughout the process.
    We are also fully supporting the NTSB investigation into 
the crash of an air taxi in Alaska earlier this month. Our 
thoughts and prayers are with those families as well. And we 
are participating in the investigation of the fire aboard the 
Ethiopian Airways Boeing 787 in London last week. The FAA has 
sent a specialist to Heathrow Airport in support of the British 
Government's investigation into that incident.
    Safety is our mission at the FAA, and we are working to 
continuously enhance our policies and procedures. Last week we 
issued a new rule requiring more hours of experience for first 
officers who fly for U.S. airlines, and we are also requiring 
that first officers earn a type rating, which involves 
additional training and testing specific to the aircraft they 
fly.
    The Next Generation Air Transportation System is helping us 
to enhance safety and efficiency by transforming our aviation 
infrastructure. NextGen technologies guide aircraft on more 
direct routes, they save fuel, and decrease delays. That is not 
only good for the environment, it saves the airlines money, and 
it is good for business.
    We are delivering the objectives of NextGen as promised. We 
have consistently met more than 80 percent of our 
implementation milestones over the last 5 years, which is 
extraordinary when dealing with a complex technological 
program. Overall, NextGen is on track, and yes, there have been 
delays, but we have learned from these and incorporated those 
lessons in the way we move forward.
    We are making all of these improvements in a very dynamic 
operating environment. We have found that collaboration is the 
key to success and to providing the best benefit to all 
stakeholders. We have a detailed plan to implement NextGen, and 
this plan is integrated into our enterprise architecture for 
our entire National Airspace System. At the same time, we are 
flexible enough to adjust our course. This approach is working 
and we are delivering benefits to our stakeholders now.
    A good example is Memphis, where we have increased airport 
capacity by more than 20 percent since last fall. By working 
with our partners we were able to revise wake turbulence 
separation standards. This allows aircraft to safely depart, 
one behind another, slightly closer together than before.
    In Atlanta, we work to safely allow jets to take off on 
headings that are slightly closer together. This small change 
has resulted in a 10-percent increase in departures per hour 
from the world's busiest airport. We estimate customers have 
saved more than 11,000 hours of waiting in line to take off 
last year thanks to NextGen.
    We expect these improvements will save the airlines $20 
million this year in Atlanta alone, and we intend to bring this 
type of efficiency to other major airports. We have brought 
together all of our stakeholders--airports, airlines, our air 
traffic controllers, managers, and other Federal agencies--to 
decrease congestion in the airspace over busy metropolitan 
areas nationwide. Through the metroplex initiative we are 
working in north Texas and Houston, northern and southern 
California, Atlanta, Charlotte, and right here in Washington, 
DC. Airlines flying into the DC metro area have started using 
these NextGen procedures. We estimate they will save $2.3 
million in fuel per year and cut greenhouse gas emissions by 
7,300 metric tons. And these benefits will increase as we 
develop more procedures.
    Just as industry depends on us to deliver the best benefits 
now, we depend on industry to share information with us to help 
us measure the benefits that NextGen provides. As I said 
earlier, collaboration is key. Only by investing the time, 
dedication, and commitment, will we continue to see the best 
benefits.
    Mr. Chairman, last year Congress reauthorized the FAA for 4 
years and laid out a vision with bipartisan consensus to 
address the future needs of our aviation system. These needs 
have not gone away. Yet, under the sequester and the current 
climate of fiscal uncertainty, the FAA needs to make sizeable 
budget cuts that affect our operations, NextGen, and our 
future.
    This uncertainty undermines the roadmap that the FAA and 
Congress laid out for NextGen. It was only last year that we 
all agreed that these goals were extremely important to protect 
the great contribution that civil aviation makes to our 
national economy.
    We are facing many challenges, but we must stay the course. 
Our aviation system needs these improvements, and the cost of 
not doing them is far greater than the cost of moving forward. 
It is important for us to work together to ensure that the 
United States continues to lead the world in aviation 
technology.
    Mr. Chairman, this concludes my prepared remarks, and I 
would be pleased to answer any questions you may have.
    Mr. LoBiondo. Thank you, Administrator Huerta.
    Our second witness today is Department of Transportation 
Inspector General Mr. Calvin Scovel.
    Inspector General Scovel, you are recognized for your 
statement.
    Mr. Scovel. Chairman LoBiondo, Ranking Member Larsen, 
members of the committee, thank you for inviting me to testify 
on FAA's NextGen program.
    Transforming our Nation's aging air traffic system is 
critical to meet the increasingly complex demands on airspace 
while maintaining the highest levels of safety. While FAA has 
made progress since it launched the program a decade ago, such 
as responding to a Government-industry task force, publishing a 
rule on ADS-B, and establishing a new organizational structure, 
many NextGen initiatives are still in the early stages of 
development. My testimony today will focus on three priorities 
for advancing NextGen: addressing the underlying causes for 
limited progress, maximizing near-term benefits, and 
successfully implementing critical automation systems such as 
ERAM.
    A number of weaknesses have contributed to the problems in 
advancing NextGen. FAA's original plans for NextGen contained 
in its 2005 progress report to Congress did not establish 
priorities, fully develop requirements, specify how 
technologies would be developed or integrated, or address 
implementation costs. By 2009 both FAA and industry recognized 
and agreed that FAA's initial goals of completing NextGen by 
2025 at a cost of $40 billion would not be possible.
    Developing adequate plans with realistic expectations still 
remains a challenge, largely because FAA has yet to make 
critical design decisions that will serve as the foundation for 
NextGen's future. For example, FAA has yet to decide on the 
level of automation needed to manage air traffic and how much 
responsibility for separating aircraft should be delegated to 
pilots and what should remain with air traffic controllers. 
These decisions will significantly impact NextGen requirements, 
capabilities, timing, and costs.
    Organizational instability and gaps in leadership have 
impeded implementation and further undermined FAA's advancement 
of NextGen. Establishing clear lines of accountability and 
authority will be key to securing progress. FAA's recent 
reorganization, the third in less than 10 years, is a step 
forward to improve NextGen's management, but ultimately the key 
to success will be in FAA's execution.
    Securing stakeholder buy-in is another significant 
roadblock to advancing NextGen. Industry representatives and 
other stakeholders continue to express skepticism that FAA will 
be able to deliver planned capabilities. Until FAA clearly 
defines how NextGen technologies will benefit users, air 
carriers will remain reluctant to invest in costly NextGen 
equipment.
    A key component to gaining user support for NextGen will be 
integrating new performance-based navigation routes and 
procedures at major airports. Navigation procedures, such as 
RNAV and RNP, can provide significant near-term benefits, 
including reduced congestion, more direct flight paths, and 
fuel savings.
    FAA has made progress in designing new advanced procedures 
at busy airports. However, implementing them has been delayed 
due to obstacles such as a lengthy procedure development 
process, outdated controller procedures, and limited training 
for controllers.
    Moreover, air carriers are not widely using procedures that 
have been implemented. For example, at the six large airports 
in Chicago, New York, and Washington, where FAA has implemented 
curved runway approaches, only about 3 percent of eligible 
flights have used them, due in part to a lack of tools to help 
controllers manage aircraft using varying routes and equipment.
    Finally, NextGen's success will depend on effectively 
implementing automation systems for controllers that will 
enable key NextGen capabilities, including the use of satellite 
surveillance and data-link communications. For example, FAA's 
efforts to modernize automation systems at 11 large terminal 
facilities may cost much more and take longer than estimated 
because the agency has not finalized software and hardware 
requirements.
    FAA faces similar challenges in implementing its 
multibillion-dollar ERAM system, which processes flight data at 
en route facilities. FAA has worked hard to resolve previous 
software problems, and controllers are now using ERAM at 16 of 
20 sites, at least part-time. However, considerable work 
remains to complete the effort by 2014 as planned. In addition, 
the ERAM contract currently costs about $12 million a month, 
and if this contract burn rate does not decrease significantly, 
FAA will need additional funds to complete the program.
    NextGen is at a critical juncture. Near-term operational 
benefits are needed to gain industry confidence in FAA's plans 
and encourage users to invest. Sustained leadership with clear 
lines of authority and accountability is key to developing an 
executable plan that is linked to the agency's budget and that 
resolves underlying causes for delays.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions you or other members of the 
subcommittee may have.
    Mr. LoBiondo. Thank you. Thank you, Mr. Scovel.
    Administrator Huerta, the FAA Technical Center has been the 
primary facility for testing and evaluating NextGen 
technologies. Do you see that role changing for the Tech Center 
in the future?
    Mr. Huerta. I don't. The Tech Center serves a very 
important role for the FAA. It is our principal test bed. It is 
a place where we test deployment of new technology, where we do 
a lot of human-in-the-loop simulations, and where we run 
operational tests. I don't see that changing at all.
    Mr. LoBiondo. OK. The FAA is blessed with great talent at 
many different levels, and I have seen the outstanding work 
sort of up close and personal and the dedication at the Tech 
Center. How does the FAA plan to continue to utilize the 
expertise at the Tech Center to advance NextGen?
    Mr. Huerta. Well, the Tech Center serves for us as our 
principal test and evaluation platform. And in that capacity, 
it plays an important role in integrating the deployment of 
technology into the actual operation that is ultimately going 
to take advantage of this.
    NextGen is more than just a technological platform. It 
actually has to be workable for the users of the system. And 
so, in addition to ensuring that the technology will be useful 
for supporting our needs for air traffic in the future, we also 
have to understand everything involved in making it operational 
within the real world environment, and that is where the human-
in-the-loop piece comes in. The Tech Center really is the place 
where all of those things come together, which enables us to 
make the determinations and the decisions as to how we actually 
deploy technology in the field.
    Mr. LoBiondo. I hope you can clear something up for me. On 
a couple of previous occasions we have asked you about the 
status of the facility's realignment and consolidation plan, 
which is required under the Modernization and Reform Act. And I 
believe you indicated that the plan was underway, and that the 
FAA was looking at the whole country; in other words, to be a 
very comprehensive plan. In the IG's written testimony, he 
indicates that the FAA has scaled back its plans and will focus 
only on an integrated facility in the New York metropolitan 
area. Could you clarify for us what the FAA is doing in terms 
of developing a comprehensive plan and how that meets with the 
mandate?
    Mr. Huerta. Sure. Those are two different things. For 
years, as you point out, we have looked at the question of how 
to realign and consolidate aging facilities. And we appreciate 
the thought and vision that went into the process that was 
outlined by Congress, and we recognize that you provided us 
with an important tool.
    As I have testified previously, we do have underway a very 
significant effort where we are looking at the whole country, 
and what we are doing is that--as you know, we have had 
difficulty in achieving consolidation of facilities in the 
past. And so to address the previous shortfalls that we have 
had in this area for facility consolidation, the FAA has taken 
a holistic approach, including our workforce and subject matter 
experts in developing the process and recommendations that will 
guide realignments of future facilities.
    We have a multidisciplinary work group of FAA and workforce 
representatives, and they are developing a process and 
recommendation for evaluating our existing terminal air traffic 
facilities for potential realignments. The draft process and 
initial recommendations have been briefed to several industry 
stakeholders, including the National Academy of Sciences and 
the National Customer Forum, which includes representatives of 
the airlines and of general aviation.
    Now, I recognize that developing this approach has been 
slower than what Congress has asked for. It has also taken 
longer than I would have wished, slowed in part by the 
management and financial challenges that we have faced. That 
said, we are creating an approach that has the ability to 
deliver much more efficient and effective infrastructure for 
the FAA.
    I anticipate that we will work with you here in this 
committee, in Congress, and with the aviation industry, to 
evaluate operationally viable scenarios for facility 
realignments and consolidations, and we look forward to 
briefing the committee on this.
    Mr. LoBiondo. Thank you. And the last question, Mr. Huerta, 
which I will ask you to, for the record, to provide the 
subcommittee in writing with a detailed status, and that is on 
performance-based navigation, I think we all can agree that is 
a cornerstone of NextGen. When you testified before this 
subcommittee earlier this year, you stated that the FAA's two 
reports on implementing performance-based navigation as 
required under the Modernization and Reform Act were 
forthcoming. So if you could provide to us in writing in detail 
we would appreciate that so we can review where that is.
    Mr. Huerta. Absolutely. \1\
---------------------------------------------------------------------------
    \1\ Please refer to Mr. Huerta's status update in response to Hon. 
LoBiondo's question number 5 on page 48.
---------------------------------------------------------------------------
    Mr. LoBiondo. OK.
    I have, Mr. Scovel, I have questions for you, but in 
deference to the other committee members, I will now turn to 
Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I actually will start 
with Inspector General Scovel.
    In my opening statement, I discussed the proposed House 
transportation appropriations bill to provide $2.1 billion for 
a facilities and equipment account for FAA. If enacted, that 
would represent the lowest capital funding level for FAA in the 
history of the NextGen program. In your view, how would those 
proposed funding levels continue to affect the implementation 
challenges that exist in NextGen?
    Mr. Scovel. Mr. Larsen, we have conferred with FAA on that 
specific matter, as well as your staff. Our understanding is 
that at those funding levels the agency would be required to 
constrain its efforts greatly in regard to NextGen and in fact 
would have to devote almost all of its attention and much of 
its funding permitted by Congress to simply sustaining the 
current system as it exists today.
    Mr. Larsen. Administrator Huerta, could you comment on my 
question as well?
    Mr. Huerta. As you know, there are various components to 
our budget. The House bill increases operations funding enough 
to maintain day-to-day NAS operations, but it does jeopardize 
both near-term and long-term capital investments that are 
needed to rebuild the aviation system in the future.
    In particular, as the inspector general pointed out, the 
facilities and equipment account is where we have the greatest 
concern; the House appropriation bill is $623 million below the 
President's budget request and $439 million below what we have 
in fiscal year 2013.
    The House level would provide the lowest F&E funding level 
since 2000, as you pointed out in your opening statement. It 
includes both targeted and undistributed reductions, 
specifically $259 million of targeted cuts, of which $43.6 
million, or 4.7 percent, is from NextGen programs, and $214.9 
million, or 11.6 percent, from legacy programs. But there is 
also $364.3 million of an undistributed reduction, and 
alternatives for this allocation are being developed by our 
capital team.
    What this forces us to do is to make tradeoffs between 
continued maintenance of the current infrastructure and NextGen 
modernization efforts. The focus would need to be that a state 
of good repair is maintained, and NextGen capabilities 
supporting information sharing and programs that are nearing 
completion in fiscal year 2014, which provide near-term 
improvements, would be taken to completion. However, the 
NextGen programs just getting underway would likely need to be 
suspended.
    A NextGen slowdown would affect the economy. An Aerospace 
Industries Association study found that a reduction of 30 
percent in the NextGen funding could result in up to $40 
billion in lost economic output by 2021. It could cost 700,000 
jobs by 2021 and as many as 1.3 million by 2035. I recognize 
these are difficult tradeoffs, but as I said in my opening 
statement, it winds up costing far more in the long term if we 
delay NextGen now.
    Mr. Larsen. And those, the budget numbers are numbers you 
lay out before the 2014 sequestration numbers kick in?
    Mr. Huerta. Yes, this is based on the House mark. Under a 
sequester scenario there are different flavors of it, and part 
of it depends on how the appropriations bills come out for the 
entire Government and whether they are consistent with the 
Budget Control Act.
    Mr. Larsen. Yeah.
    Mr. Huerta. Under a scenario where we would start the year 
on a continuing resolution with no anomalies, in an F&E context 
we would actually be somewhat better off than this, but far 
worse off in the operation account.
    Mr. Larsen. Yeah, right. Right. Last Friday you asked the 
RTCA NextGen Advisory Committee to develop a prioritized list 
of NextGen activities that would be triaged due to budget cuts 
and sequestration. Would you explain why you asked NAC to 
undertake that project and how it will influence FAA's NextGen 
strategy, Administrator.
    Mr. Huerta. We have had a lot of discussions in our 
industry consultation through the NAC and through other forums 
about the general climate of fiscal uncertainty. As you and the 
chairman and other Members have all mentioned, we are operating 
under significant fiscal constraints as a country as a whole. 
The industry has indicated, and we have agreed, that it would 
be prudent for us to have a clear sense of our key priorities 
to ensure that we have the maximum level of focus as we enter 
this more uncertain fiscal climate.
    As a general matter, I think that we all agree that we are 
in a far better place in a constrained fiscal environment if we 
are focusing on a state of good repair and perhaps needing to 
consider doing fewer things but doing them well, and seeing 
them through to completion, as opposed to an across-the-board 
reduction which only has the effect of delaying everything and 
jeopardizing benefits for delivery to the aviation community.
    What we are asking the NAC is, as an industry group which 
represents air carriers, general aviation, suppliers, 
manufacturers, where do they think the greatest focus needs to 
be placed in order to minimize the impact of sequestration. As 
we consider the tradeoffs here, what advice would they offer us 
on what our highest priorities should be?
    Mr. Larsen. Thank you, Mr. Chairman. And when I get to a 
second round, to the extent that other Members don't touch on 
the differences in testimony, I will explore that. Thank you, 
Mr. Chairman.
    Mr. LoBiondo. Thank you.
    We will now turn to Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    I want to thank both of you for being here. Thank you 
today.
    I am from Texas, I am a business guy, and I look at 
everything like a business. In my district I have got Dallas/
Fort Worth Airport and Austin-Bergstrom, among a lot of smaller 
ones, so I am rooting for you. But I have a question, two 
questions actually, to you, Administrator. In reading the IG's 
comments, they mention about organizational culture has been 
slow to embrace NextGen's vision. And as a business guy, when 
you don't believe in the product, it is hard to sell it. It is 
hard to get involved in it. I know about that because I still 
use this flip phone, and I need to get away from it.
    And so what are you doing to have your folks understand 
that this is the future of where we are heading and to get them 
embracing it?
    Mr. Huerta. Thank you, sir. I would like to answer your 
question in two parts. First of all, the question of why is it 
the way it is, and then what are we doing about it.
    I think it is important to recognize that the FAA is 
governed very much by a safety culture. Everyone is very 
focused on maintaining the highest levels of safety in our 
aviation system. And what that leads to is a level of caution 
against trying things that are different, for a very important 
reason: Individuals are concerned about messing something up. 
We have a system that provides the highest levels of safety, 
and there is a general belief that we want to ensure that in 
deploying anything new that we are not in any way compromising 
safety. That is not at all to suggest that things don't need to 
change. We can always raise the bar on safety, and change is a 
big part of that.
    What we have found is that the best approach is through the 
collaborative processes that we have implemented in the last 
couple of years working with industry and working with our own 
workforce to actually do the very hard work of grinding 
through, what we want to deploy, what questions and concerns 
stakeholders have, and how to respond to them in a real way.
    That is the approach that underlies how we got ERAM back on 
track. We are now operating it in 16 of our air traffic control 
centers. That is the framework through which we are deploying 
advanced navigation procedures in north Texas and elsewhere, 
and we are actually reducing time associated with the delivery 
of those procedures and directly addressing the point made by 
the inspector general that publishing a procedure alone is not 
enough. You actually have to work with the operators to ensure 
that they have the tools that they need to actually deploy it.
    What we are finding is that we need to work with all of the 
stakeholders. We can't simply publish a new procedure and just 
issue an order and say make it happen. We really need to work 
through the full scope of the operation, and we need to be 
responsive to the questions and concerns that are raised by all 
the stakeholders in the system.
    Mr. Williams. Well, get them going. I will dump this flip 
phone if you will get NextGen cranking, OK?
    Mr. Huerta. That is a deal.
    Mr. Williams. All right, second question. I am also 
concerned as a business guy about what we see and what we call 
organizational instability, which the IG also talked about, 
inconsistent leadership surrounding the program. I know that 
you are filling some administrative areas, but it has been slow 
in doing that. And can you explain why there has been so many 
reorganizations and are we moving in a direction where we are 
going to have a full team?
    Mr. Huerta. I can speak to what has happened over the last 
couple of years for those that I have been a part of. When I 
originally joined the agency as Deputy Administrator, it was 
with the thought that I would oversee the NextGen portfolio. 
And as you know, I stepped into the Acting Administrator role 
soon after that.
    Since then, FAA reauthorization called on us to appoint a 
chief NextGen officer. We did bring in a new Deputy 
Administrator earlier this year, once I was confirmed as 
Administrator, and we did name Mr. Whitaker as chief NextGen 
officer. He is now in the process of filling out his team, and 
we are very close to naming a new Assistant Administrator for 
NextGen as part of the organizational restructuring that the IG 
touched upon. We implemented that restructuring a couple of 
years ago and it was very focused on elevating the profile of 
NextGen, taking it out of the ATO, and ensuring that it had the 
specific authority that the IG has mentioned in his testimony 
to work across all the lines of business of the FAA.
    I think that we are actually making very good progress. It 
has taken longer than I would like. Part of that was driven by 
the fact that for a long time I was two-hatted, serving both as 
the Administrator and effectively the chief NextGen officer. 
But I think that we are well launched to getting to where we 
need to be organizationally.
    Mr. Williams. That is good to hear. We need nine men on the 
field of play.
    Mr. Huerta. Absolutely.
    Mr. Williams. Thank you. Appreciate you coming by, 
appreciate your testimony. I yield back.
    Mr. LoBiondo. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    Gentlemen, I have been hearing about NextGen since the day 
I got on this committee, actually a little bit before that, and 
it sounds great. And I am one of those supporters because 
pretty much everybody I have talked to looks me in the eye and 
says, great idea, great program, I am for it.
    But I am starting to wonder. I mean, it has taken a really 
long time to roll that out. Everybody seems to be dragging 
their feet, not just the FAA, if you want the truth. Everybody 
is pointing to everyone else about somebody else's 
responsibility to pay for this or get this done.
    And I am starting to wonder to myself, especially now with 
sequester, if we are not going to be able to do, if we haven't 
been able to, and we are not likely to be able to do what we 
had originally wanted to do, why isn't it time to just kind of 
take a deep breath, not because the proposal is a bad proposal, 
but the situation has changed. There is obviously more 
problems.
    I mean, I like the idea that change and these kinds of 
things take second place to safety concerns. I don't have any 
problem with that concern. But it is obviously not what I had 
been led to believe 10 years ago, or 6 years ago, or 2 years 
ago, or 6 months ago.
    Is it not time to just kind of take a deep breath and for 
everybody just to relax, step back, look at where we have been, 
look at the moneys that we currently have, look at the problems 
that we have already faced and encountered, and still face and 
encounter, and say, you know what, maybe we have to make it a 
little longer, maybe we have to focus in on a few airports 
first, maybe we need to do something different so that we can 
actually live up to the expectations that we set forth?
    And I don't think that is a bad thing. I don't even think 
it is an anti-business thing. There isn't a businessman in the 
world that I know of that hasn't made a change in their 
investment plans or their business plan because they run into 
unforeseen obstacles. And I don't personally think that is a 
criticism of the proposal. I don't think it is a criticism of 
anybody or anything. It is just simply an acceptance of the 
reality.
    And I am just wondering what you think of that concept, Mr. 
Administrator, the idea of taking a deep breath, kind of 
getting everybody back in the room again and say, OK, here we 
are today, here is where we all want to go, how do we from this 
point forward, not based on a plan that was put together 10 
years ago or 2 years ago, how do we get from where we are to 
where we want to be with the lessons we have already learned, 
including the financial restraints that we now face?
    Mr. Huerta. Sure. Thank you, Mr. Capuano.
    The plan that the FAA has developed is designed to have an 
overall architecture, but also to be flexible, to respond to 
what stakeholder requirements are, and the realities of how the 
industry is developing. I think that we are actually in a good 
place based on the investments that we have made over the last 
10 years.
    Over the first 10 years, a lot of the focus has been on 
foundational technologies. What does that mean? The basic 
building blocks and platforms on which we build advanced 
capabilities over time. So those are new automation platforms 
for en route and our terminal environment. We talked about 
ERAM. We talked about how we had some hiccups on that, but we 
have addressed those. We are doing the same in our terminal 
program. We also mentioned ADS-B, which is a foundational 
technology. That is the GPS-based technology that enables us, 
that ultimately can replace radar across the country.
    Mr. Capuano. But, Mr. Administrator, if you have all the 
technology in the world, but people refuse to use it or won't 
use it for any good number of reasons----
    Mr. Huerta. But let me come to that point.
    Mr. Capuano. Because I am running out of time.
    Mr. Huerta. OK. Well, the point is that what that now 
enables is for us to focus on delivering benefit. And the big 
focus for the last year has been on performance-based 
navigation. That for the airlines and the users of the system 
is a huge benefit because it has reduced fuel burn, reduced 
cost, and reduced environmental emissions. And that is what our 
metroplex initiative is all about. Let's take advantage of the 
investments we have made to date. Let's focus on delivery of 
benefits while, in parallel, we are looking at the longer term 
initiatives.
    Mr. Capuano. Mr. IG, would you agree with that statement? 
Would you agree with that approach?
    Mr. Scovel. I would agree with the approach that we are at 
a critical juncture, and that to some extent a reset is 
required. My reservation is that if the reset is to extend for 
an appreciable length of time, industry and the taxpayers will 
become even more frustrated with the situation that we find 
ourselves in today.
    I think essentially FAA is well positioned under the 
leadership of this committee and in close collaboration with 
industry to make just the kind of reassessment that you have 
suggested, Mr. Capuano. New leadership is coming in. FAA has 
established pretty good ties, my office believes, with the 
NextGen Advisory Committee, and the RTCA continues to function 
with them. The move last week to request priorities from the 
NAC, we heartily applaud. It is much needed, especially in this 
fiscal environment.
    I would urge the committee to hold FAA's feet to the fire 
now with the new leadership coming in and to instill, as our 
statement suggests, a new sense of urgency with NextGen, which 
has been lacking for much of the past decade. FAA has had the 
luxury of being able to proceed across a broad front. Now they 
have to narrow their attack along specific lines, and together 
with industry they need to identify those priorities----
    Mr. Capuano. Thank you.
    Mr. Scovel [continuing]. PBN being the first and foremost.
    Mr. Capuano. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you Mr. Chairman.
    Thank you both for being here.
    Mr. Huerta, I wanted to follow up on some of your written 
testimony. I think in your written testimony you said we have 
been transparent from the very beginning about what we intend 
to accomplish, and yet here we are some 10 or 11 years later 
with very little to show for it. You know, in 2004 we talked 
about the transformation of Americans' airport network. And 
then in 2006 we talked about an aviation revolution. In 2007, a 
wide-ranging transformation. In 2008 we talked about another 
transformation to the 21st-century technologies. In 2009 we 
talked about being forever redefined. In 2011, a comprehensive 
overhaul. And wide-ranging transformation in 2012.
    Then in 2013 we changed the rhetoric to be an evolution. 
And really when we talk about evolution, we think of millions 
of years. And so I get concerned about that.
    And then in the IG's report he talks about the 2009 
internal FAA study, and it said that you did not specifically 
address risk-adjusted, realistically reflect the risk-adjusted 
technology in terms of feasible implementation as promised, 
your own internal survey. So wouldn't you say, isn't it fair to 
say that we have been maybe overambitious and unconstrained 
with regards to what we hope that we can accomplish?
    Mr. Huerta. I don't think we have. What we have adopted is 
a segmented approach to deployment of what is, we all agree, a 
very complex technological change and operational change in 
terms of how we move airplanes. And we have really----
    Mr. Meadows. So you feel like you have accomplished----
    Mr. Huerta. I do.
    Mr. Meadows [continuing]. What you set out to do 10 years 
ago?
    Mr. Huerta. I feel like we have made significant progress 
toward a very significant change in how we manage air traffic. 
Let me give you a specific example. Fundamentally, the ADS-B 
technology gives us a much clearer view of what is happening in 
the National Airspace System. That is very different from 
radar. A way to think about it is a radar picture is sort of 
the equivalent of a somewhat fuzzy view of what is going on 
because it is limited by the sweep of the radar. What ADS-B 
gives you is sort of the equivalent of HDTV. It is a much 
clearer and more precise view which enables you to move 
aircraft closer together. That makes for a much more efficient 
use of the system.
    Mr. Meadows. And you shared that in your opening testimony 
with regards to Atlanta and how we are able to do that.
    Mr. Huerta. Yes.
    Mr. Meadows. But really, help us understand, because 
NextGen was supposed to be this, you know, now we are moving 
aircraft closer together. But from a lot of the stakeholders we 
are seeing that their concern is that the FAA and many of your 
employees are not buying in. It is not a buy-in or lack of a 
buy-in in terms of the stakeholders. It is really a lack of a 
buy-in in terms of many of the people that work for you, is 
that not correct?
    Mr. Huerta. It actually goes both ways. Let's talk about 
what NextGen enables. It enables performance-based navigation. 
I talked about earlier how, in order to successfully deploy 
performance-based navigation, we must engage in collaboration. 
An airline might want a particular PBN procedure that is going 
to save fuel for them. They can request that we publish it, and 
in the old days that is what we would have done. We would have 
published it and then we would have found our operational 
difficulties with it and it wouldn't have worked.
    What we are doing now is we are sitting down with the 
airline, the airport, the controllers, the military, and 
adjacent facilities in the metropolitan area to ask the 
question, OK, these guys would like to have this approach which 
will reduce track miles flown, reduce their fuel burn--how do 
we make it happen?
    Mr. Meadows. All right. So based on these meetings that you 
have had over the last 10 years, what would you say is the 
probability of us seeing real transformation, not an evolution, 
but real transformation and redefining within the next 10 
years? Are we going to make our, you know, 2025 deadline? By 
what I read, I don't see any way that we can do that at this 
point.
    Mr. Huerta. I don't know exactly what you would consider to 
be transformation, but I can say this.
    Mr. Meadows. What would you consider transformation?
    Mr. Huerta. I think we will be in a very different place 
where we will be handling more traffic, much more efficiently, 
with a higher level of safety, and reducing fuel----
    Mr. Meadows. But if we don't know--OK, but if we don't know 
where we are going, if we are just making good progress, we are 
still lost.
    Mr. Huerta. No, we do know where we are going. We have an 
enterprise architecture that has specific building blocks. I 
talked about the foundational programs that we are building, 
and we are overlaying additional technological capabilities on 
top of them. And that is very clearly laid out in the NextGen 
implementation plan that we publish every year, along with 
specific milestones and schedules for meeting them.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. LoBiondo. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. And let me 
express my appreciation to Administrator Huerta and Inspector 
General Scovel for being here.
    Of course, I have been listening to the NextGen debate in 
this committee now for quite a while. And I think I know why 
quite a bit of it has not been implemented: It is hard to do it 
without money.
    But I do look at the Inspector General's that controller 
policies and procedures have not been updated and remains an 
unresolved obstacle, which makes it uncertain when airspace 
users can expect widespread benefits.
    What is causing this delay other than some money, I know, 
and updating the controller policies? And as an addendum to 
that question, there is a small airport near Dallas in 
Mesquite, Texas--and I have had just about every airport around 
Dallas County now in the last 21 years or more--completed 
recently a new control tower funded, with the commitment that 
it would be furnished with air controllers. Now that it is 
finished, they can't get a commitment or an answer as to 
whether or not they will get this air controller. Could you 
comment on that and the previous question?
    Mr. Huerta. Thank you. Let me talk first about the question 
that you asked with respect to how do we integrate with 
controllers. One of the things that was identified in working 
with our industry stakeholders was that we needed to focus on 
rewriting the Air Traffic Control Handbook; that that is a very 
important provision in order to unlock the benefits of NextGen.
    In July of last year, we set a goal for this year to make 
progress in rewriting the controller handbook to keep up with 
modern air traffic capabilities in the NextGen era. And here is 
the specific issue we needed to address: what are the rules 
under which controllers will authorize and ensure that advanced 
navigation procedures can actually be operationalized, 
particularly in congested metropolitan areas?
    To accomplish this task effectively we have been working 
with NATCA, with aircraft traffic control management, and the 
aviation community to identify the most important changes for 
each of these groups. And we found that the requested changes 
fell into two categories: current standards that we needed to 
update as a result of new technology, and cases where changes 
have been made but the criteria that I was talking about for 
conducting advanced operations has not been completely 
established.
    We identified a consolidated list of 15 specific changes 
that would enable us to address these issues. We expect to 
complete 10 of them by the end of this fiscal year with the 
following 5 to be completed thereafter.
    The revisions to the handbook are things that we have to be 
very careful about, and we have to do them in accordance with 
our safety management systems. Safety management systems are a 
systematic and continuous management process to proactively 
identify, analyze, and mitigate safety risk. And these 15 
changes are just the first step as we continue to work 
collaboratively with our internal and external stakeholders to 
write a long-term plan and to address these specific 
operational problems that you are talking about.
    Going to your point about Mesquite, Texas, I will need to 
check into the specifics of that and we will provide a response 
to you after the hearing.
    Ms. Johnson. Thank you very much.
    Mr. Scovel, you indicated in your written testimony that 
the FAA has made little progress in shifting from planning to 
implementation on NextGen and delivering benefits to the 
airspace users. Would you please expand on this statement, 
explain how you are measuring that progress?
    Mr. Scovel. It is very difficult to measure. And thanks, 
that was exactly our point. Over the last 10 years, FAA set 
overly ambitious NextGen goals and what it believed would be 
achievable in its 2005 progress report to Congress on NextGen. 
By 2009 those goals and the vision for NextGen had changed 
rather drastically, from a 2025 completion date to at least 10 
years later, and in the view of the JPDO and the contractor who 
worked with them to complete that report, a final cost figure 
of two to three times the original $40 billion estimate. This 
changed the picture drastically but FAA did not communicate 
this to Congress.
    Since then, there have been other problems with FAA's 
organization of its NextGen effort, and now FAA finds itself 
confronted with a very difficult fiscal environment. It is time 
for FAA to look in close consultation with industry at what is 
most achievable in the short term. And our consultation with 
industry would lead us to recommend to FAA performance-based 
navigation--and we believe they are fully on board with that--
as well as continuing their emphasis with the automation 
platforms, ERAM, and substituting STARS for Common ARTS at 
their specific TRACON locations, and then confronting the 
critical design decisions that will be needed to fully maximize 
potential benefits from ADS-B and DataComm. Specifically, FAA 
must address level of automation that will be required and also 
the division of responsibility between cockpit and ground 
systems for managing aircraft.
    Until those design decisions are made, the true benefits of 
NextGen cannot be realized.
    Ms. Johnson. Thank you both. I yield back. My time has 
expired.
    Mr. LoBiondo. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    And, Administrator Huerta, I appreciate you coming in, as 
always, taking the time to come up to the Hill.
    My question is a little bit different. It does deal with 
delays, however, but it is on technology delay, which I was 
specifically speaking to some of the technology out there on 
spin, you know, or making aircraft spin resistant, which has 
been going on forever. And I know ICON has got some new 
technology out there and they are trying to get an exemption 
from the weight limit when it comes to light sport, which was 
kind of arbitrarily set, and I think that should be based on 
performance and complexity of aircraft. But that is a whole 
other issue.
    Mr. Graves. But I was surprised to find out that they 
applied for an exemption that is 15 months old. And I have got 
letters here from Senator Inhofe and Congressman Petri and 
various industry groups asking for some sort of resolution. I 
have got a letter from the FAA, too, on this saying that they 
would have a response to their request from you all at the end 
of last year, 2012. And I know I am kind of hitting you with 
this, and I don't intend to hit you blind side, I just would 
like to get an answer, have you get back to me and give me an 
answer on when they are going to have some resolution, because 
they can't move this technology forward unless they get an 
exemption and get an answer to that. So I would appreciate that 
very much, they need a decision on that.
    I am always interested in new technology, and particularly 
when it comes to Spin Resistance, Aircoupe started this way 
back in the 1940s, you know, now we have ICON doing and it is 
fascinating, as a pilot, it is fascinating. And that is one of 
the things obviously that gets a lot of pilots in trouble is 
getting into a stall spin situation. So if have you any comment 
on that, I sure would appreciate it.
    Mr. Huerta. I am not familiar with the status, Congressman 
Graves, but we will get you a response.
    Mr. Graves. OK. And I was afraid of that, I didn't mean to 
hit you blind side and that is the reason I am not going to 
press it today, but I would like a response right away on that.
    Mr. Huerta. Absolutely.
    Mr. Graves. I appreciate that, and thank you very much for 
coming in. I yield back, Mr. Chairman.
    Mr. LoBiondo. Mrs. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Administrator Huerta, 
thank you for being here. You know, I represent Las Vegas and 
tourism and air travel are key to our economy. Forty-five 
percent of the people who come to Las Vegas come through 
McCarran Airport. I talked to the folks at McCarran before this 
hearing because I wanted to get some feel for how they are 
dealing with the problems that we are addressing here and the 
NextGen. And I am glad to report that they are pretty satisfied 
with what has happened. They give you good marks for what has 
happened so far. But like most people in the comments you heard 
today, they are concerned about when something else is going to 
happen and they would like to see that sooner rather than 
later.
    Well, it sounds like from listening to you and to the 
inspector general, that you are pretty aware of what the 
problems are, we are not telling you anything with these 
questions. I hear you talk about the identified management 
problems, the resistant culture, the need for reliable data. 
You addressed that with a monitor study, a change of personnel, 
better coordination with other agencies, more involvement with 
stakeholders. I appreciate all that.
    The elephant in the room that nobody wants to really talk 
about is money, now you have had to deal with a sequester, but 
if you look at the latest Republican Transportation 
appropriation bill, that cuts more than half a billion dollars 
from FAA. So how are you going to make any progress under those 
kind of circumstances?
    Mr. Huerta. That is a challenge. The House appropriations 
bill would significantly impact, I would say, devastate our 
facilities and equipment account, and that is the account 
through which we fund both the maintenance of our legacy 
infrastructure as well as the deployment of new capabilities. 
It is $623 million below the President's request, and $439 
million below where we are this year. And so it is a 
significant challenge. It is for that reason, as I was talking 
about with Mr. Larsen, that we have asked industry to share 
with us what they would like to see as priorities if we need to 
deal with that.
    Personally, I believe that it is extremely important for us 
to stay the course. This is a very complex technological 
evolution, and it is one in which the United States has very 
significant leadership. We are working closely with our 
international stakeholders because air traffic is a global 
system, and trying to ensure that we have common procedures, 
common approaches to how we redesign the airspace, not just 
here in the United States, but internationally. And as a result 
of being where we are and the commitment that we have all made 
as a Nation to this, we are in a very significant leadership 
position, and in a place where we can really drive what the 
international standards are going to be for the entire aviation 
system worldwide.
    I think that for us to step back from that becomes a very 
serious thing. Aviation was invented in America and we have 
always represented the cutting edge of technology and it is 
important that we continue that.
    Ms. Titus. Thank you, I yield back.
    Mr. LoBiondo. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman, and I want to thank 
both of you for coming back again. It is a little bit like 
Groundhog Day to me, it sounds a lot like last year's report 
that we got. We a got a relatively rosy report from the agency 
and a relatively negative report from inspector general and 
this year kind of the same thing.
    I guess I will start with you, Mr. Scovel, you have made a 
lot of recommendations over the period of time, dozens and 
dozens and dozens of recommendations. How do you feel the FAA 
has been responding to those?
    Mr. Scovel. Thank you, Mr. Ribble. Generally, FAA is 
responsive. Part of our audit process is to confer closely with 
the agency as we work our way through the audit. We have what 
is called an exit conference at the end where we present our 
findings and planned recommendations. FAA always gives us a 
very thoughtful effort in their assessment of those 
recommendations, and quite often concurs with those and we are 
pleased with that. However, an administrative point that 
worries us as auditors is that not only FAA, but other agencies 
in the Department take quite a bit of time to get their 
comments back to us and that raises questions to us about the 
timeliness and relevance of our work.
    I would say our relationship overall with regard to our 
recommendations with FAA is quite good. We have a number of 
open recommendations from past reports, specifically regarding 
NextGen. I could tick off a couple of those that we consider 
most significant.
    By the way, we have briefed FAA on our tentative findings 
on the current audit that forms the basis for our testimony 
this morning. We intend to focus our recommendations first on 
the critical path for NextGen implementation. We will focus as 
well on FAA's reorganization of its NextGen implementation 
entities to try to drive at some of the programmatic and 
organizational challenges that we discuss in our statement 
regarding leadership, organizational culture and the sense of 
urgency.
    Of our past recommendations from April 2012, the highlight 
was our recommendation for an integrated master schedule. In 
fact, we have highlighted before this committee and also before 
the House Oversight and Government Reform Committee, that this 
is one of our top five open recommendations across the entire 
Department of Transportation. The integrated master schedule 
will form the basis for FAA to make better informed choices 
regarding priorities, and sequencing, and also the consequences 
of decisions down range. The key is the ripple effect, if you 
will--specifically concerning time on many diverse and 
interdependent programs.
    That gets us to delay, and we understand from the users 
that their principle pain point right now is the perception 
that there has been a lot of time and undue delay in 
implementing NextGen capabilities. But we have also recommended 
to FAA in June 2010 that they document interdependencies 
between systems and procedures, that they identify critical 
path issues or decisions in terms of airspace changes, and 
finally that they assess safety and implementation risks of 
mixed equipage operations and develop corresponding mitigation 
strategies and policies.
    All those recommendations and those last three remain open 
from 2010. In fact, we understand FAA has been working to 
implement them, but until we have further meetings and 
documentation from the agency, we will not close them because 
we want to be able to report to the Congress that FAA has 
indeed responded fully to the intent as well as to a letter of 
those recommendations.
    Mr. Ribble. Thank you. Mr. Huerta. You talk a little bit 
earlier about the culture of safety at FAA, and I really want 
to commend FAA, I get an airplane every single weekend, and 
quite frankly, I never even think about safety. The airline 
industry and what FAA and NTSB have done over the last several 
decades has been a stunning achievement, quite frankly, to the 
point--you fly all over the country and not even be concerned 
about it to be quite honest with you.
    Is it possible, however, and I have seen this in other 
organizations where a culture of safety, I have seen employees 
who are so safety-focused that they hop on a parallel path of a 
culture of fear, where fear now pervades the fear of making any 
mistake whatsoever, inhibits them from making any change at all 
whatsoever and it can impede progress. Are you observing any of 
that? Is there any concern of that?
    Mr. Huerta. That is something that has about a concern of 
the aviation industry in general for a long time. I think the 
industry in its totality, and the FAA as a part of this, has 
really tried to address this issue head on through nonpunitive 
reporting mechanisms where individuals can identify a problem 
without fear of retribution. On the carrier side, it is 
programs such as ASAP where they can identify issues that might 
represent a safety risk so that they can be dealt with. On the 
air traffic side our counterpart is ATSAP, where controllers 
can identify are there procedural issues? Are there challenges?
    I think what you are talking about is extremely important. 
It is something that we are very focused on and that is really 
the entire underpinning of our collaborative efforts to try to 
bring all stakeholders together and recognize that air traffic 
management is a shared responsibility. Everyone wants to see a 
safe system, an efficient system, and they want it to be 
adaptable to new technologies and to new operational 
characteristics. That is a very positive development.
    The downside of it is that it takes time, because it 
requires you to build levels of trust, levels of understanding, 
and a familiarity and working relationship, which is really 
critical to ensure that you are able to deliver actual 
benefits. While it takes longer, I am all for it, because you 
get a better result. It is a result that sticks, and it is a 
result that people can actually use and which really delivers 
benefits.
    Mr. Ribble. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. LoBiondo. Thank you. Mr. Scovel, you talk a little bit 
about the integrated master schedule. Did you say and did I 
miss what you believe the status of the integrated master 
schedule is?
    Mr. Scovel. Thank you, Mr. Chairman. I didn't say and I 
appreciate the opportunity to clarify that. FAA is working on 
that recommendation. We are informed that by December of this 
year, FAA anticipates completing that work. We will have a 
chance to look at it, and we will assess whether it meets the 
intent and letter of the recommendation, and perhaps be in a 
position to close it at that point.
    Mr. LoBiondo. You do believe that is key to how we move 
forward?
    Mr. Scovel. It is key and the effort is underway on the 
part of FAA.
    Mr. LoBiondo. You identified some of the challenges and 
development and implementation of NextGen, could you tell us 
what you believe the problems are? I mean, is this funding 
related? Is it organizationally related? What do you believe is 
the root of this?
    Mr. Scovel. Mr. Chairman, we don't believe looking at the 
past record that funding has been a problem. Congress has been 
fairly generous with the agency for its NextGen lines of 
businesses, to the tune of $3.8 billion since 2008. As I 
mentioned earlier, FAA has had the luxury of being able to try 
to proceed on a pretty broad front across transformational 
programs, both longer range as well as trying its hand at some 
of the near-term improvements that the users have been most 
eager for.
    Now the situation is different with regard to funding and 
FAA will have to make some very tough priority decisions in 
consultation with the users. However, there are programmatic 
and organizational challenges that are outlined in our 
statement concerning organizational culture, inconsistent 
leadership, leading to a different messaging of vision and so 
forth. Programmatic problems have led to some of the technical 
difficulties that the agency has encountered, specifically with 
ERAM, which would be the best example of that. We anticipate 
the agency will also encounter similar challenges as it 
modernizes its automation platform in the TRACON facilities.
    So all of those technical programmatic and organizational 
challenges persist with NextGen. We would say while funding in 
the past may not have been a problem, certainly it is, as was 
mentioned earlier, the elephant in the room for FAA and this 
committee today.
    Mr. LoBiondo. Do you have any specific recommendations for 
either Congress in general, or the Transportation Committee or 
the Aviation Subcommittee of what additionally we can or should 
do to help move this along?
    Mr. Scovel. I think Administrator Huerta has laid out a 
pretty good outline of what he thinks the agency needs in order 
to advance NextGen, even facing the difficult fiscal challenges 
that we all know he faces today. I would urge the committee and 
Congress to hold FAA's feet to the fire, and use our office as 
your tool to help you do that. We would welcome the opportunity 
to further work with you and the agency to review FAA's 
programs and plans, to see whether it has made good on much of 
what Administrator Huerta has said today regarding 
prioritization--further collaboration with users and its 
workforce, the near-term steps with PBN and metroplex 
improvements, automation platform modernization with ERAM and 
at the TRACONs, and then confronting the very difficult 
critical design decisions regarding divisional responsibility 
between cockpit and ground facilities and the level of 
automation. Only when those decisions are finally made--and 
they are difficult policy decisions, not within the purview of 
my office, but certainly for the agency and the committee--will 
the long-range benefits of ADS-B and DataComm be put in place. 
If final benefits are ever to be felt by the taxpayer, we 
believe it will be in FAA's ability to consolidate and realign 
its facilities as ADS-B fully reaches its potential--perhaps to 
make adjustments to the workforce, certainly to close some of 
its most aging facilities and to consolidate those. But those 
are difficult policy decisions for the Administration and for 
the Congress.
    Mr. LoBiondo. Mr. Huerta, is there anything additional you 
can think of or suggest that we can do from this end to help 
you in your efforts to this humongous task?
    Mr. Huerta. I think that it is important that we all 
recognize that this is a very large and complex program and, as 
we have talked about, we have built an excellent foundation 
where we can now add additional capabilities. As you heard from 
the inspector general, we have been in discussions and have 
been responsive to many of the recommendations made by the 
inspector general. In fact, in their most recent review of the 
ERAM program, the inspector general acknowledged that 
significant progress had been made in getting that program back 
on track.
    I think that where the committee can be helpful is to go 
back to where we were with FAA reauthorization and recognize 
that we had all identified, as a country, that this is an 
extremely important initiative to enable us to provide support 
and to maintain leadership for an aviation industry. We all 
knew then that it was an incredibly complex undertaking, but 
that the cost of not doing it greatly exceeded the cost of 
doing it. We need to keep that in mind as we go through this 
difficult climate in the years ahead.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chair. First off, I would ask 
unanimous consent to enter some QFRs from Mr. Nolan.
    Mr. LoBiondo. Without objection so ordered.
    Mr. Larsen. Thank you. Inspector General Scovel, getting 
back to some of the things you noted, you testified initial 
plans are NextGen targeted 2025 at the cost of $40 billion. And 
your office said this was overly ambitious and unconstrained, 
and you talked about some of the specific concepts and 
capabilities that were part of initial plans for NextGen, and 
whether FAA is on track to achieve them by 2025. Can you pick, 
is there a poster child for this?
    Mr. Scovel. For the failure to meet a 2025 deadline?
    Mr. LoBiondo. Right, yeah.
    Mr. Scovel. I would say it is a combination, sir, between 
ADS-B and DataComm at this point. Progress has been made on 
ADS-B in terms of installing the ground infrastructure, 
although that has been delayed from 2013 to 2014, so we 
continue to see friction there. Demonstration projects are in 
line and underway, such as greater coverage in areas where we 
don't have radar--Gulf of Mexico and Alaska, for instance--and 
a few other demonstration projects around the country. But as 
far as being able to demonstrate to users who will bear the 
ultimate and quite large bill to equip with ADS-B In--and that 
will be the game changer for them as well as for FAA--the 
agency hasn't yet been able to confront those decisions. It may 
be simply a matter of time and in a couple of years they will 
be able to do that, but if that slips, 2025 is well off the 
table.
    DataComm is an essential program for NextGen, but it is a 
program that has had its own fits and starts through the years. 
You may remember, sir, that it began initially in 2003 after 
$100 million investment, but was terminated in 2005 for 
technical difficulties among other problems. It was resurrected 
last year. It is an expensive program but users have long 
memories, and they see that some users in the middle part of 
last decade actually spent to equip and then had, in their 
view, the rug pulled out from under them when the FAA had to 
terminate the program in 2005. They are very reluctant to 
repeat what they view as a mistake and so they want to see FAA 
make solid, consistent and prolonged progress on DataComm 
before they spend more money on it. If ADS-B and DataComm 
continue to lag in their view, there is no chance of 2025.
    Mr. Larsen. Thanks. Before I asked Mr. Huerta to comment, I 
just never thought I would be here long enough to have anybody 
say you might remember back in 2003, it is getting to be here a 
little long.
    Administrator Huerta, you testified though in your written 
testimony FAA's delivering NextGen on time and on target. Here 
are a couple of examples where there are obvious concerns. Can 
you address that?
    Mr. Huerta. Yes, the premise that as a result of individual 
delays causing the whole program to be delayed I think is 
fundamentally not correct, because what NextGen is is a series 
of interrelated programs, and admittedly, we have experienced 
delays with some of them. But the approach is also based very 
much on showing that we have the flexibility to recover from 
them and to ensure that we can reorder delivery of things so 
that we can meet the overall objective, which is delivery of 
the benefits that we have always talked about.
    I would like to address the two things that the inspector 
general has talked about, ADS-B and DataComm as illustrative 
examples. ADS-B capability is truly foundational. We are 
delivering the ground stations, and that will complete that 
aspect of the project. What the inspector general talked about 
was how we ensure equipage for ADS-B In. Well, one of the 
things that we thought important was we need to consult with 
industry to understand the dynamics associated with that and 
what they want to see. So we convened an aviation rulemaking 
committee to provide advice to us and to raise issues that they 
want to make sure that we take account of before we were to 
issue a mandate. That is something that we are carefully 
evaluating.
    As I talked about earlier, these are necessary consultative 
steps; it takes time but gets us to a better outcome. Because 
what I don't want to have on the back end is a big fight about 
whether we have got it right. We want to get it right the first 
time. And that ultimately enables us to ensure expeditious 
deployment when the time comes.
    On DataComm, this is one that is at a very critical point. 
There are three factors that affect it. One is the capabilities 
that will be deployed as a result of DataComm. The second is 
ensuring that we have the highest level of coordination with 
our European counterparts who are looking to deploy a similar 
technology. We want to ensure interoperability and consistency 
across the Atlantic. Working with them on standards and on 
calendars is extremely important.
    And the final point is funding. DataComm is a program that 
is just getting underway. And as the inspector general pointed 
out, it is a game changer, it is one that really does cause 
significant operational benefit, but given where it is in its 
planning cycle and our funding choices, that is one that does 
very much concern me in terms of its voidability.
    Mr. Larsen. Thank you. I have further questions, I will 
wait for the third round, I see some other Members have 
returned.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. I wanted to follow up 
a little bit. Mr. Huerta, when we were talking about successes 
earlier, you brought up the ADS system and it being a success 
of NextGen. And yet when I look at your testimony, where you 
highlight it, you talk about UPS being able to save some fuel, 
you talk about Jet Blue being able to save 100 miles, it 
doesn't sound like a great success story. In fact, when I talk 
to many of the people in the industry, their comment is that 
ADS, for all practical reasons, is not being used. How would 
you comment on that?
    Mr. Huerta. Well, what it enables is the use of 
performance-based navigation.
    Mr. Meadows. I know it enables that, but is it being used?
    Mr. Huerta. That is what they want and that is what the 
metroplex program is focused on delivering.
    Mr. Meadows. I understand that is what it is focused on. Is 
it being used?
    Mr. Huerta. It is.
    Mr. Meadows. Across the industry. So I went out to all the 
stakeholders, the majority of them would say, this is a great 
success, this is--we are spending $40 billion worth to 
implement it and use it, is it being used that way?
    Mr. Huerta. I think if we worked through particular 
metropolitan areas they would acknowledge that they are seeing 
benefit. I talked about Atlanta, how we are able to increase 
departure rates at Atlanta, I talked about north Texas, how we 
are able to deconflict----
    Mr. Meadows. But that wasn't in your testimony, but you are 
saying that is a direct success of ADS.
    Mr. Huerta. Yes, yes.
    Mr. Meadows. OK. So if I called the Uniteds and all of 
them, they would agree with you that Delta, that this is a 
great success and they would be applauding you on this.
    Mr. Huerta. They would agree that what we have been able to 
deliver as a result of technology is more performance-based 
navigation procedures. Now they still want more, and they are 
not completing where they want to be, but they would say that 
yes, they do benefit in particular programs.
    Mr. Meadows. So how do we measure success? I am all about 
results and not spending this. And earlier we talked about 
success, the IG has been very detailed and perhaps some would 
say critical in terms of where we have been with this. At what 
matrix do we look at, since most of the stakeholders are saying 
that we haven't really adopted ADS, you have put in--it gets 
back to what Mr. Williams said, he is using a flip phone. I can 
use a Smartphone if all I am doing is making phone calls, it 
doesn't do me any good, and that is what it sounds like, we 
have a lot of technology out there that is not really being 
implemented across your agency or used fully, would you agree 
with that?
    Mr. Huerta. I would agree with the point that as you deploy 
technology, there is a period of time where utilization needs 
to catch up with it; that is true for any technological 
revolution.
    Mr. Meadows. Sure.
    Mr. Huerta. And that our focus needs to be on how to ensure 
that users are taking advantage of technology that is already 
deployed.
    Mr. Meadows. So how do you ensure that, because to date, we 
haven't really assured that, so how would you----
    Mr. Huerta. We are. That is entirely what our focus on 
performance-based navigation is all about. Now we have put on 
our Web site, and we have made available specific metrics that 
measure how we actually meet the business objectives that the 
users have associated with the deployment of these.
    Mr. Meadows. So who puts forth the grade? I mean, you put 
it on a Web site, how are we meeting it, who grades you out?
    Mr. Huerta. Ultimately it only works if it is delivery and 
benefit to the users and I understand that. And I understand 
that we have to continue to focus on what it is that they 
require for the delivery of the capabilities that they want, we 
get that. Last summer there was a lot of discussion around a 
particular runway configuration in Chicago, so we focused in on 
what we could do to eliminate conflicts through the use of PBN, 
and we have been successful in doing that. Before that, there 
was a lot of concern about what could be done to increase 
capacity in Atlanta. That is what led to that 10-percent 
increase in departures. We need to be responsive.
    Mr. Meadows. I am running out of time, so if you can answer 
this last question for me, out of the industry, out of the 
stakeholders, what percentage of the stakeholders are you using 
ADS and really seeing a significant advantage out of that, what 
percentage of the stakeholders are using it?
    Mr. Huerta. I think a better way for us to respond to that 
is what percentage of time or procedures actually being used in 
particular metropolitan areas, and we can get you some 
information on that.
    Mr. Meadows. Well, I would like the answer to the other 
question I asked you too, what percentage of stakeholders? And 
with that, I thank the chairman and I yield back.
    Mr. LoBiondo. Ms. Johnson.
    Ms. Johnson. Thank you very much. I would just like to ask 
if I can depend on your department to have a briefing with my 
office as it relates to Mesquite Airport.
    Mr. Huerta. Yes, absolutely.
    Ms. Johnson. Thank you very much.
    Mr. LoBiondo. Mr. Scovel, do you think that ADS-B is being 
widely used now?
    Mr. Scovel. No, I don't think it is being widely used now. 
In some locations, sure, such as over the Gulf of Mexico, 
Alaska, Philadelphia, and Memphis areas where demonstration 
projects are in place. Elsewhere, it is not widely used. And as 
far as being an enabler requirement for using PBN, performance-
based navigation in specific metropolitan areas, our review of 
the FAA data shows that it is not either.
    For instance, our statement notes that in three major 
metropolitan areas where certain RNP procedures are in place, 
Chicago, New York, and right here in Washington, only 3 percent 
of the eligible flights are able to use those RNP procedures. 
The sticking block in most instances is not with the 
controllers themselves or their outlook but their training and 
their ability to manage those advanced procedures.
    They don't have the tools, they don't have the revised 
handbook, they don't have the new policies, and they haven't 
had the necessary training. It is entirely understandable and 
proper that they should decline to grant authorization to 
aircraft that request to use RNP under those circumstances. But 
if we don't have the ultimate enablers for the controllers at 
this point and their level of training, then they won't get 
that user and that aircraft across the goal line.
    Mr. LoBiondo. Do you want to comment?
    Mr. Huerta. What I would add is which why we are so focused 
on dealing with how we make this operational in focusing on the 
controller handbook, focusing on working with all of the 
stakeholders, and ensuring that a procedure is not published. I 
mean, as we--when we deploy a new procedure, what we have to 
focus on in very granular terms is who wants to use it, who is 
able to use it, and how does it mix with other traffic in that 
area. And we can only do that, not in a big global training 
session, but by working with specific work groups, in specific 
metropolitan areas to really focus on very precise procedures, 
and how do we ensure that they get used. That is what the 
metroplex initiative is all about.
    And while people may be critical that it doesn't take time, 
I think it is important not to lose sight of the fact that we 
have invested significantly in trying to tackle that specific 
problem, and we are seeing benefit as a result of it.
    Mr. LoBiondo. Really, I think this has been very good and 
very helpful for us to sort of understand a little bit better. 
Trying to be fair, from a timeframe, do you think we would have 
additional positive news 3 months, 6 months a year? I mean, 
what do you think it will take to get to another level here, 
Mr. Huerta?
    Mr. Huerta. The thing that I am most concerned about is the 
fiscal uncertainty between now and going into the next fiscal 
year. Here is why. We have spent a lot of time talking about 
delivering benefits and ensuring users have that. And you have 
heard from me that the way we ensure that we are able to 
deliver benefit is through very intensive, collaborative 
processes with industry, with controllers and with the agency 
in very granular terms about ensuring that we are able to take 
advantage of the technology that we are deploying.
    That costs money, and that is something that is--has been 
for me--a very high priority with how we use or operate and our 
F&E resources. As we look at an uncertain fiscal climate, it 
presents us with a choice that we don't like which is, do we 
retreat to a base operation and not try to do new things, or do 
we continue to stay the course on deploying of these new 
advanced technologies so we can deliver the very benefits that 
we all say that we want to deliver? And as I look at where we 
are in the balance of this fiscal year and the uncertainty we 
face going into next year, we do have to resolve that question.
    Mr. LoBiondo. Thank you. Mr. Larsen.
    Mr. Larsen. Thank you. Inspector General Scovel, in your 
written testimony, you stated the FAA hadn't yet made a key 
design decision regarding how much responsibility for tracking 
aircraft will be delegated to pilots versus the duties that 
would remain for air traffic controllers. Could you explain why 
that is a key decision?
    Mr. Scovel. Thank you, Mr. Larsen. Yes, it is a key 
decision because heretofore, pilots haven't had that type of 
responsibility. It has rested with controllers on the ground. 
For pilots to undertake that, of course their employers will 
have to agree, they will have to be trained, the aircraft will 
have to be equipped, controllers will have to change their 
outlook from one of air traffic control to air traffic 
management. That really is a revolutionary step.
    Right now it appears to us that until ADS-B is mandated, 
and those requirements specified, it is very much an open 
question as to whether that delegation of responsibility to the 
cockpit is going to take place.
    Mr. Larsen. Administrator Huerta, do you care to respond? 
Do you still see this happening?
    Mr. Huerta. I do see it happening but I differ with the 
inspector general that there is a magic day where a decision is 
made and everything changes. The way I would characterize it is 
that as we deploy technology, we need to work through 
respective responsibilities of users of the system in terms of 
what they actually mean.
    NextGen, by definition, is a transformation from a command 
and control environment, as the inspector general pointed out, 
to a shared responsibility for air traffic management. But how 
we deploy that is what we need to discuss. And that is 
something that is not a black and white, we decide that one day 
and move forward; that is an operational discussion of actually 
how do we make that real in specific congested airspace.
    Mr. Larsen. Inspector General Scovel, with regards to the 
design decision on the number and locations of air traffic 
facilities needed to support NextGen as a key decision, can you 
layout why the IG says that is a key decision?
    Mr. Scovel. Number and design of facilities?
    Mr. Larsen. Yes.
    Mr. Scovel. It is a key decision because if the full 
potential of all of NextGen's programs are to be realized, it 
might be possible for the current configuration of the NAS to 
be very radically different from today in terms of the number 
of facilities, their location and the workforce that is 
required to staff them.
    As the Administrator has pointed out, that is a continuing 
discussion that needs to take place. Both the agency and the 
committee, the full Congress, need to understand what the 
possibilities are in that area, and then make a difficult 
policy decision as to whether to embark in that direction. 
After all, in the final analysis it is jobs, and we are also 
talking about Federal presence in areas across the entire 
country, north, south, east, west. The will of the Congress 
will be paramount in that area, but it is not a decision that 
can rest exclusively with the agency or with the industry. We 
acknowledge that difficult policy matter and continuing 
discussions have to take place.
    Mr. Larsen. Administrator Huerta, any additional comment on 
that.
    Mr. Huerta. I agree.
    Mr. Larsen. I have a question from a member not on the 
committee, I want to ask it, for Administrator Huerta, it does 
deal, if the chairman will indulge me with Asiana flight 214 
about testing of employees of foreign carriers and whether or 
not they should be required to undergo mandatory drug and 
alcohol testing following a crash in the U.S., we require that 
for domestic pilots or domestic carriers, but are not able 
apparently to require of foreign pilots of foreign carriers. 
Does the FAA have a position on changing that?
    Mr. Huerta. Sure, as you know the FAA does require U.S. 
operators to conduct drug testing of pilots following 
accidents. And you also pointed out that FAA regulations do not 
apply to foreign pilots or foreign airlines. In order to do 
that, we would need to undertake a rulemaking, but I want to 
step back for a minute and talk about the broader global 
context in which this operates.
    Changes to international standards on post accident drug 
and alcohol testing are most likely to occur if there is 
multilateral support for many countries. And the forum through 
which that is done is the International Civil Aviation 
Organization. ICAO standards do not presently require that 
member States establish biochemical testing programs to detect 
or to deter inappropriate drug or actual use. However, what 
they have is something called a recommended practice. And the 
recommended practice states that ICAO member States shall 
ensure as far as practicable that all license holders who 
engage in any kind of problematic use of substances are 
identified and removed from their safety critical functions.
    We, the U.S. Government, believe that the global aviation 
community would greatly benefit from the development of clearer 
ICAO standards in that regard and would be supportive of those 
efforts. And we believe that it is appropriate to work that in 
a multilateral context. I would caution against unilateral 
regulatory action on the part of the U.S., because we have to 
consider the implication of other States taking unilateral 
actions that would affect our crews and our carriers in their 
respective countries. So we would push to deal with this in the 
international setting through ICAO.
    Mr. Larsen. I understand. And finally, my last question is 
I had asked in my opening statement about the letter I sent to 
you all about metroplex--sending out metroplex initiatives 
because of sequestration and was looking forward to a formal 
response.
    Mr. Huerta. I will be providing you a formal response 
shortly in writing, but I'd like to highlight some of the 
things I will be talking about in that. The collaborative part 
of the metroplex program was stood down in mid-April as a 
result of sequestration. These are the collaborative report 
groups we have for air traffic controllers. We anticipated 
needing to return controllers to their home facilities in order 
to move air traffic as a result of reduced hours.
    We approved the restart of these projects after we received 
the one-time authority to enable us to cancel the furlough. We 
have designated funding operations facilities engineering 
activities in the affected en routes in terminal air traffic 
control facilities in order to enable these projects to move 
forward.
    We are still assessing what the long-term impact of that is 
on schedule because of necessity. We need now to reassemble 
teams, get caught up in terms of work that was underway in 
order to enable us to take this high-priority program and get 
it back to where it needs to be, but yes, we did have to reduce 
those activities as a result of the sequester.
    Mr. Larsen. Under a CR environment, I assume that we 
continue under a, what I would put long odds on, under regular 
order environment where we actually pass all the bills, 
appropriations bills by October 1st that would continue, but 
under a sequestration environment, you would have to return to 
make a decision on whether to continue those?
    Mr. Huerta. Absolutely. Because under a CR environment with 
sequester we would see a very significant reduction to our 
operating budget, and that is how we fund this.
    Mr. Larsen. And that is how you fund that. Yeah, good, all 
right. Thank you very much, thank you.
    Mr. LoBiondo. Mr. Huerta, Mr. Scovel, we thank you very 
much. This has been very helpful. I hope we can continue to 
work together to try to see future progress and with that the 
hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

</pre></body></html>
